          Office of Inspector General




March 28, 2006

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:       Internal Control Group (Report Number FT-MA-06-001)

This report presents the results of our review of the Internal Control Group (ICG)
(Project Number 05BD002FT000). The review was conducted as part of our fiscal year
(FY) 2005 Audit Plan.

                                Objectives, Scope, and Methodology

Our overall objective was to review the ICG’s role in the U.S. Postal Service and how it
accomplishes that role. Our specific objectives were to determine the scope of ICG
work at the headquarters, area, and district levels, and to assess ICG planning,
fieldwork, and reporting policies and procedures and the ICG’s use of the Internal
Control Reporting System (ICRS) to record and track its work. To accomplish our
objectives, we interviewed ICG management at headquarters and employees at the
judgmentally-selected Capital Metro Area and Richmond District. We also examined
information maintained by the ICG on the Postal Service intranet. In addition, we
reviewed the Internal Control-Integrated Framework, published by the Committee of
Sponsoring Organizations (COSO) of the Treadway Commission, for applicability to the
ICG. Finally, we relied on computer-generated data maintained in the ICRS.

We conducted this review from January 2005 through March 2006 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials and
included their comments where appropriate.

                                        Prior Audit Coverage

We did not identify any prior audits or reviews related to the objective of this review.

                                              Results

We acknowledge the Postal Service’s efforts to establish the ICG to assist management
in proactively improving processes. We performed the review during the developmental
phase of the ICG. Therefore, we were able to fully evaluate neither ICG planning,
Internal Control Group                                                                                  FT-MA-06-001



fieldwork, and reporting policies and procedures, nor the ICRS. Nevertheless, this
report provides information on the establishment, mission, structure, methodology,
reporting system, and accomplishments of the ICG at the time of our review.
Furthermore, we are including observations on the ICG’s efforts for reporting on internal
controls over financial reporting.

                                         Establishment of the ICG

The need for the ICG was established in the Postal Service’s Transformation Plan as
reported in the 2004 Comprehensive Statement on Postal Operations. Further impetus
for the ICG resulted from the financial reporting reforms proposed by COSO and
requirements of the Sarbanes-Oxley Act (SOX) of 2002, and in response to the
Government Accountability Office’s (GAO) position that the Postal Service needed
stronger internal controls.

In FY 2003, under the auspices of the Shared Services/Accounting (SS/A) project, field
accounting work was reengineered, residual work was migrated to the three existing
accounting service centers, and the 85 district accounting offices were discontinued.
Implementation of the SS/A project was intended to streamline accounting processes
and operate more efficiently without sacrificing internal controls and service.

Initial staffing for the ICG was drawn from Executive and Administrative Salary
Schedule (EAS) employees whose positions were eliminated during the implementation
of the SS/A project. EAS employees in positions eliminated (manager, accounting
operations; supervisor, financial services; revenue assurance analyst; and postal
system coordinator) were the initial selection pool for ICG positions in district offices.
The Postal Service reported significant savings from the SS/A project, but these savings
did not include positions created in the ICG.

The headquarters ICG operations and program budget for FY 2005 was $6.8 million.1
This included headquarters-sponsored events that included field personnel, such as
training and conferences. Costs associated with ICG field operations for FY 2005 were
approximately $37 million2 and were part of the district managers’ budgets.

As of April 2005, the ICG had 500 authorized positions at the district level (80 internal
control managers and 420 internal control analysts), of which 415 were filled. Because
staffing came primarily from the district accounting offices and, to some extent, the
former revenue assurance function, internal control analysts continued to assist in the
transition to a Shared Services/Accounting structure. Therefore, not all ICG field staff
were performing in full-time ICG roles.

1
  The eRise (Enterprise-wide, Risk Analysis, Internal Control, Sarbanes-Oxley, Excellence) program budget of
$4.1 million is included in this amount. eRise is a key module in the Oracle e-Business suite. It is scheduled to
replace ICRS in FY 2006.
2
  This estimate was provided by the headquarters ICG manager and does not include facility costs and other
overhead costs.

                                                                2
Internal Control Group                                                                                 FT-MA-06-001




                                                     Mission

The ICG was formed in 2003 to assure compliance with policies and processes in order
to confirm integrity in reporting results critical to transition and to the success of a more
performance-based culture. Internal control analysts partner with management
enterprise-wide to identify, through analysis, risk assessment, and review, those internal
controls that are not reliable, effective, or efficient. The ICG and management work to
find the root causes for identified deficiencies and make recommendations for
improvement, to provide reasonable assurance that desired business objectives are
attained.

The ICG operates as an internal consultant by assisting management in proactively
improving processes by evaluating the internal controls in those processes. As such, it
is not an internal audit function and does not follow professional auditing or other
standards.3 For example, the levels of supervisory review and quality control are not as
extensive as those required under professional auditing standards. In addition, the ICG
is not considered independent under such standards.

ICG analysts receive 20 hours of training in orientation and methods for performing
reviews. In 2003, all field managers and analysts received this training. This training
continues to be provided to new ICG personnel. In FY 2005, 94 new analysts received
the 20 hours of training.

                                                 ICG Structure

The ICG is an integral part of Postal Service management, as shown by its reporting
structure. The headquarters’ ICG function consists of an ICG manager, the Internal
Control Support team, and the Corporate Audit and Response Management (CARM)
team. The headquarters function is also supported by area- and district-level personnel.
(See Appendix A, ICG Reporting Structure.)

The ICG manager reports to the chief financial officer and executive vice president. The
manager is located at Postal Service Headquarters and provides leadership to the ICG
function. The manager attends meetings of the Board of Governors Audit and Finance
Committee, provides quarterly reports to the Business Review Committee, and meets
with the Postal Inspection Service, as needed, on particular topics.

The Internal Control Support team reports to the ICG manager. This team consults with
headquarters process owners on process improvements, coordinates national review
activities, directs activities to develop new topics for review, and analyzes and reports
on summary data from field reviews. In 2004, staffing for this team was completed and
consists of a manager, Internal Control Support, eight specialists, and one analyst.
3
  Professional auditing standards include standards issued by the American Institute of Certified Public Accountants,
Institute of Internal Auditors, and GAO.

                                                               3
Internal Control Group                                                                                    FT-MA-06-001




CARM also reports to the ICG manager. It acts as coordinator and liaison between
management and the U.S. Postal Service Office of Inspector General (OIG) and
external auditors. Although it does not review Postal Service operations, CARM is
expected to benefit the ICG by providing information on risk management and improving
its ability to respond to auditors. CARM was formed in 2002 and became a part of the
ICG in 2004. CARM is led by a manager and includes eight analysts.

The headquarters ICG function is assisted in each area by the area finance manager
and area accounting manager. The area finance manager’s primary role is to
coordinate activities and act as liaison between the headquarters team and respective
districts. The area accounting manager facilitates area-level risk assessment and
prioritization, directs reviews of area-selected topics, coordinates training requirements,
and advises headquarters ICG on district ICG issues.

The ICG activities at the district level are the heart of the ICG function. Here, the ICG
function is led by a district internal control manager who reports to the district finance
manager. The district internal control manager oversees a staff of three to nine internal
control analysts who perform reviews at field sites using predetermined review steps for
a given Postal Service process. Costs associated with the ICG function at this level are
funded by the district.

                                               ICG Methodology

An ICG risk assessment4 is built from the district level through the areas and to
headquarters. This method results in national priorities that are generally aligned with
district priorities, so that ICG work plans at the districts include national priorities. Work
is generally selected based on results of the risk assessment. As time progresses,
further data analysis, new information, and events could lead to reprioritizing items in
the risk assessment or recognition of potential risks that were not captured.
Accordingly, district ICGs continue evaluating risk assessment results against their
current environment and adjust work plans based on those assessments. For example,
a district manager was concerned about declining mail volume, and the local ICG team
responded with a review in the subject area. Also, one ICG manager determined that
business mail entry units, a national priority based on risk, was not a top priority at that
district. Therefore, the manager assigned reviews in other Postal Service processes
that had a higher priority in that district.

The ICG has three programs – financial, performance, and revenue. Each of these has
a library of detailed review topics. In conducting a review, analysts evaluate internal
controls within a given Postal Service process, such as stamp stock accountability,

4
  The risk assessment model is a tool used to develop work plans for the ICG. It provides a snapshot of potential risk
at a point in time based on (1) inherent risk, the amount of dollar exposure in the process; (2) control risk, the nature
of the controls in the process; and (3) prior coverage, the elapsed time since the process was last reviewed by the
ICG.

                                                                 4
Internal Control Group                                                                                  FT-MA-06-001



disbursements, asset security, registered mail, automated postal centers, master trust
reconciliations, business mail acceptance, business reply mail, and detached mail units.

Many controls evaluated are the same or similar to those examined by the OIG in
conducting field financial audits. For example, both ICG and OIG programs determine
whether retail floor stock exceeds authorized amounts, and if cash counts are
performed at the required frequencies. The OIG, however, completes work as part of
an overall audit in accordance with professional auditing standards. Although the ICG
does not complete work as part of an overall audit, approximately 80 percent of its work
is directed at evaluating controls and making recommendations for improvements for
risks identified in the annual risk assessment and prioritization. This work may include
areas that are also covered by the OIG.

The ICG has 527 authorized positions5 and an operating budget of approximately
$39.6 million6 that it uses to accomplish its program work. Approximately 15 percent of
its work and $5.5 million of its operating budget are directed to cyclical topics7 covering
the same or similar areas covered by the OIG. The OIG dedicated 84 authorized
positions and $8.9 million of its operating budget to accomplish its audits in the same or
similar program areas.

While the ICG and OIG may conduct work on the same or similar topics, the objectives
are different. The ICG performs the monitoring function of the internal control structure8
by selecting data-driven reviews to evaluate internal controls, determine root causes for
control weaknesses, and make recommendations to improve control effectiveness and
efficiency. On the contrary, the OIG performs statistically-selected audits in support of
the annual financial statement opinion in accordance with auditing standards generally
accepted in the United States and the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United
States. (See Appendix B for a comparative analysis of ICG and OIG program work.)

                             Reporting Results and Accomplishments

The ICG uses the ICRS, a web-based system, to track work in progress and maintain a
record of completed work. The ICRS is a database that serves as the internal control
analysts’ workpapers. It enables the analysts to record their work, and supervisors and
others in authority to oversee the work done. The system also maintains
recommendations by site and reviews9 issued. The system provides ICG statistical
data, such as the most frequent reportable conditions, including weaknesses in internal

5
  As of September 30, 2005.
6
  FY 2005 headquarters and field budget information, not including the eRise program budget and overhead costs
such as facilities.
7
  Cyclical reviews represent items that, in general, have adequate controls to mitigate risk. However, periodic
reviews are needed to ensure that controls continue to work as designed.
8
  Monitoring is one of five interrelated components of internal control, as identified by COSO’s Internal Control –
Integrated Framework.
9
  Generally, a report consists of one review.

                                                                5
Internal Control Group                                                                             FT-MA-06-001



controls, and statistics by area and district. The system also provides statistical data by
types of reviews – for example, money orders, business reply mail, and payroll.

Although each topic is generally a separate review, it may be combined with the results
of another topic at the same site, if conducive, and tracked in the system as a single
review. For example, if the analyst performs some or all of the steps in review topic
2000, Stamp Stock Accountability, SIA Office, that work is considered one review. If the
analyst then performs steps in topic 3000, Money Orders, at the same location, it is
considered a second review. For reporting purposes, the analyst, however, may
combine the results from 2000 and 3000 into a single review. As of May 11, 2005, the
ICG had performed 16,586 reviews, and 2,703 reviews were in progress.10

When analysts complete their reviews, they prepare written reports for the district
finance or internal control manager’s review and signature using a standardized format.
Postal Service management is expected to respond within 30 days of receiving the
report. When a recommendation for a policy or standard procedure change is not within
the authority of the unit or district manager, area managers consider whether the
recommendation should be forwarded to ICG headquarters for further action. For
example, the field ICG in the Pacific Area developed recommendations for
improvements in controls for media mail that included changes in nationally established
procedures. The recommendations were submitted through the Pacific Area to
headquarters ICG, and resulted in establishing national procedures for periodic
management inspections of media mail.

The ICG expects to transition from ICRS to the internal controls manager application in
FY 2006, but ICRS data will be available through FY 2007. Internal control programs,
approach, and methodologies will not change, and data from ICRS will be accessible for
tracking and analysis.

                  Reporting on Internal Controls Over Financial Reporting

The ICG, in coordination with Finance, participates in management actions to voluntarily
comply with portions of Section 404 of SOX.11 Under Section 404, businesses must
acknowledge management’s responsibility for maintaining adequate internal control
mechanisms for financial reporting and evaluate the efficacy of such mechanisms.




10
   We attempted to ascertain the number of recommendations since the inception of the ICG, but ICRS could not
readily provide the information.
11
   SOX provisions do not apply to the Postal Service. However, Postal Service management stated that it remains
committed to a continuing effort to achieve voluntary compliance with Section 404 of SOX.

                                                             6
Internal Control Group                                                                           FT-MA-06-001



To achieve compliance, the ICG and the controller’s function have been working to map
eight major processes:

                •   Cash
                •   Payroll
                •   Transportation
                •   Meter revenue
                •   Money orders
                •   Real estate transactions
                •   Contract payments
                •   Accruals – month- and year-end closing process

More than 300 processes and subprocesses have been documented, and three teams
have been reviewing end-to-end processes for cash, money orders, and meter
allocations.12

In its report on internal control and other matters to the Audit and Finance Committee
and Postal Service management, the independent public accountants, Ernst & Young,
LLP, supported management’s initiative begun in FY 2004 towards voluntary
compliance with portions of Section 404 of SOX. They also recommended that
management continue the momentum it has started and set a goal to review its overall
strategic plan and timetable for this initiative. In addition, they recommended
management continue to communicate its path to the Audit and Finance Committee.

Management views SOX compliance as a viable plan for documenting, testing, and
monitoring controls over financial reporting. Priority business initiatives for improvement
and limited resources have affected the timeline for meeting management targets for
voluntary compliance with portions of SOX, but the Postal Service’s efforts and
commitment are expected to continue.

We discussed the results of this review with Postal Service management on March 14,
2006. No recommendations were made, and management chose not to respond to this
report. No action by management was required.




12
     Process documentations are in the draft phase and not available for release at this time.

                                                                  7
Internal Control Group                                                       FT-MA-06-001



We appreciate the opportunity and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Lorie Siewert,
director, Financial Statements, or me at (703) 248-2300.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Lynn Malcolm
    Margaret A. Weir
    Steven R. Phelps




                                               8
Internal Control Group                            FT-MA-06-001




                          APPENDIX A

          INTERNAL CONTROL GROUP REPORTING STRUCTURE




                                 9
Internal Control Group                                                                                                                      FT-MA-06-001



                                                                  APPENDIX B

        COMPARATIVE ANALYSIS OF ICG AND OIG PROGRAM WORK

                                                                Comparison of Effort
                                                       Postal Service Programs Reviewed by:

                               Internal Control Group                                  Office of Inspector General
                                                                ICG and OIG work
                             80% Risk Priority Topics                                  Financial Operations
                                                               conducted in same or
                                 15% Cyclical Topics               similar areas       Core Operations
                                             5% other                                  Headquarters Operations
                                                               ICG Cyclical Topics
                                                                  Stamp Stock
                                                                 Accountability
                   ICG Risk Priority Topics                      Disbursements
                                                                 Asset Security                            Other OIG Programs
           Identified through Risk Assessment and                 Business Mail
ICG                      Prioritization                            Acceptance                       Identified in fiscal year audit plans
Other                                                          Business Reply Mail
             NOTE: May include parts of ICG cyclical           Detached Mail Units
            topics if particular controls are evaluated as                                 NOTE: Audit plans are updated throughout the fiscal year
                            risk priorities.                  OIG Financial Program
                                                               Financial Statements
                                                                  Field Financial


Note: The diagram shows where ICG and OIG conduct work in the same or similar areas. There are other ICG activities not related to OIG
work, and OIG work not related to ICG work, as illustrated by the non-intersecting portions of the diagram.


                              ICG                                                                                  OIG
                                                   Authorized Positions as of September 2005

                                     Cyclical         Total                                                           Field Financial    Total Audit
          Headquarters                                  21                             Field Financial                            84
          Field                            80          506
                                                                                       Total Audit                                               356
          Total                            80           527

                                Note: ICG Cyclical is estimate based upon 15% of work assigned to cyclical topics.

                                                 Funding of Operations ($Millions) for FY 2005

                                     Cyclical         Total                                                           Field Financial    Total Audit
          Headquarters                                  2.6                            Field Financial                           8.9
          Field                            5.5         37.0
                                                                                       Total Audit                               8.9            27.3
          Total                            5.5         39.6

                                Note: ICG Cyclical is estimate based upon 15% of work assigned to cyclical topics.

                                                         Professional Standards Followed

          None—Certification program under                                             Government Auditing Standards
          consideration                                                                PCIE Quality Standards for Inspections
          ICG Analysts receive 20 hours training in                                    AICPA—Auditing Standards Generally Accepted
          review methods at time of appointment                                          in the U.S.

                                                                Purpose of Work

          Provide recommendations to management                                        Provide support for the annual financial statement opinion by
          regarding internal control weaknesses.                                       the independent public accountant.




                                                                                      10
